Van

C@OCKLE

2311 Douglas Street Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR LUTHERAN CHILD AND FAMILY SERVICES OF

ILLINOIS AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:

JOSEPH R. PALMORE

Counsel of Record
ADAM L. SORENSEN
MORRISON & FOERSTER LLP
2000 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 572-6782
JPalmore@mofo.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 20th day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v 2 Z 1,
RENEE J. GOSS ¢ dudeaw- *

 

My Comm. Exp. September 5, 2023,

 

Notary Public Affiant 39944
 

Attorneys for Petitioners

Mark Leonard Rienzi
Counsel of Record

The Becket Fund for Religious Liberty (202) 955-0095
1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

 

Attorneys for Respondents

Leslie Cooper
Counsel of Record

American Civil Liberties Union (212) 519-7815
125 Broad Street
New York, NY 10004

Icooper@aclu.org

Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal
Counsel of Record

Hogan Lovells US LLP (202) 637-5528
555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

 

 
